"Review of Medicare Bad Debts at the University of Alabama at Birmingham Hospital,"(A-04-00-06005)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Bad Debts at the University of Alabama at Birmingham Hospital," (A-04-00-06005)
December 13, 2001
Complete
Text of Report is available in PDF format (313 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the University of Alabama at Birmingham Hospital (UAB Hospital) claimed $7,203,293 in
Medicare bad debts on its 1997 cost report.  Of that amount, only $1,775,045 represented allowable Medicare bad debts
because UAB Hospital had not fully developed a patient accounts receivable system to accumulate complete, accurate, and
timely Medicare bad debts.  We recommended that UAB Hospital improve its patient accounts receivable system and claim
only $1,775,045 as Medicare bad debts on its 1997 cost report.